  REVIEW OF GSA’S SUSPENSION
    AND DEBARMENT PROCESS
REPORT NUMBER A090221/O/A/F10005

        September 30, 2010
             u.s. GENERAL SERVICES ADMINISTRATION
             Office of the Inspector General



Date:                September 30, 2010

Reply to
Attn of:             Audit Manager, Acquisition Programs Audit Office (JA-A)

Subject:             Review of GSA's Suspension and Debarment Process
                     Report Number A090221/0/A/F10005

To:                  Kathleen M. Turco
                     Associate Administrator for Governmentwide Policy (M)


This report presents the results of our review of GSA's suspension and debarment
process. We found that staffing deficiencies continued to negatively impact the Center
for Suspension and Debarment's (CSD's) ability to process case referrals throughout
2008 and into 2009 because management did not initially take sufficient steps to resolve
the staffing deficiencies identified in our 2007 report. While the staffing situation has
improved under the current Suspension and Debarment Official, concerns remain that
GSA has not afforded this critical function adequate resources.

The CSD has a structured framework to evaluate case referrals that implements the
Federal Acquisition Regulation. However, we believe establishing performance metrics
for timeliness in processing referrals would improve the CSD's overall effectiveness.
Further, while the CSD's new electronic case management system benefits the CSD's
efficiency, we believe the CSD should also upload documentation of all EPLS actions
into the case management system for verification. Additionally, the CSD could increase
efficiency with direct access to information resources pertinent to documentation needs
for processing cases. Lastly, an increase in the CSD's efforts to identify more potential
cases would constitute a more proactive approach to its mission. We found that
virtually all of the CSD's cases result from OIG referrals.

Included in Appendix C of this report are your written comments to the draft report. We
also incorporated those comments into the final report as appropriate. I would like to
thank your staff for their assistance during this review. If you have any questions
regarding this report, please contact me at (816) 926-8610.




~~~.~)1-'1
Erin P. Priddy          --~
Audit Manager
Acquisition Programs Audit Office


                      24118th Street, Suite 400, Arlington, VA 22202-3402
                          FL'<leral Recycling Program   Printed on Recycled Paper
                REVIEW OF GSA’s SUSPENSION AND DEBARMENT PROCESS
                         REPORT NUMBER A090221/O/A/F10005

                                                  TABLE OF CONTENTS

EXECUTIVE SUMMARY ............................................................................................................... i 

INTRODUCTION .......................................................................................................................... 1 

   Background ............................................................................................................................... 1 

   Objective, Scope, and Methodology ......................................................................................... 2 

RESULTS OF REVIEW ................................................................................................................ 3 

   Management Has Yet to Fully Resolve Staffing Inadequacies ................................................. 3 

       Recommendation .................................................................................................................. 8

       Management Comments ....................................................................................................... 8

       OIG Response ...................................................................................................................... 8

   The CSD’s Process Provides a Framework for Suspension and Debarment Decisions .......... 8 

       Recommendation ................................................................................................................ 14

       Management Comments ..................................................................................................... 14

   The CSD Should Upload EPLS Updates to Case Management System ................................ 15 

       Recommendation ................................................................................................................ 16

       Management Comments ..................................................................................................... 16

   Use of Additional Information Resources Would Facilitate Efficiency and a More Proactive
   Focus ...................................................................................................................................... 16 

       Recommendation ................................................................................................................ 17

       Management Comments ..................................................................................................... 17

   Conclusion .............................................................................................................................. 17 

   Internal Controls ...................................................................................................................... 18 

APPENDIXES 

APPENDIX A: GSA Office of Acquisition Policy Organization Chart ........................................ A-1 

APPENDIX B: Status of 427 Respondents at the end of FY 2009 ........................................... B-1 

APPENDIX C: Management Comments ................................................................................... C-1 

APPENDIX D: Report Distribution ............................................................................................ D-1 
          REVIEW OF GSA’S SUSPENSION AND DEBARMENT PROCESS
                   REPORT NUMBER A090221/O/A/F10005


                                 EXECUTIVE SUMMARY

Purpose

The Acquisition Programs Audit Office conducted a review of the General Services
Administration’s (GSA’s) Center for Suspension and Debarment (CSD). This review is
a follow-up to our review completed in 2007 entitled “Review of GSA’s Suspension and
Debarment Program,” (see Report Number A070105/O/A/F08004, issued in December
2007). In that review, we found inadequate staffing in the CSD led to a backlog of
suspension and debarment case referrals. According to management’s action plan in
response to our recommendations, the Office of the Chief Acquisition Officer had filled
all staffing vacancies as of October 15, 2007. The objective of the current review was to
determine the extent to which the CSD is effective in processing suspension and
debarment case referrals and taking action in response to those referrals.

Background

At GSA, suspension and debarment is implemented through the CSD, which is part of
the Acquisition Integrity Division, a branch of GSA’s Office of Acquisition Policy. GSA
Order ADM 5440.619, effective August 11, 2009, placed GSA’s Office of Acquisition
Policy under the Office of Governmentwide Policy. GSA’s Director of Acquisition
Integrity is also its Suspension and Debarment Official (SDO). The CSD staff, which is
made up of case officers and administrative support personnel, reports directly to the
SDO. The CSD receives virtually all suspension and debarment case referrals from the
Office of Inspector General’s (OIG’s) Office of Investigations. If a case referral results in
a suspension and debarment action, the CSD enters the pertinent information into the
Excluded Parties Listing System (EPLS), a government-wide database used for tracking
these actions. Contracting officials are required to check EPLS before making contract
awards to ensure the Government contracts only with responsible contractors. Since
suspension and debarment actions become a critical source of information to
contracting officials, it is important that the suspension and debarment process is as
timely as possible without compromising the quality of the decision-making process.

Results in Brief

GSA’s CSD continues to face challenges related to staffing problems that have
impacted its ability to effectively process case referrals. While the staffing situation has
improved since our 2007 report, and the CSD has been productive at processing and
taking action in response to the majority of its workload, concerns remain that GSA has
not afforded this critical function adequate resources. As a result, there is an increased
risk of the Government conducting business with irresponsible contractors.


                                              i
We found that the CSD’s processes implement FAR guidance for decision making on
the part of the SDO. However, while the FAR does not specify required time frames for
reaching an initial decision and taking action, we believe establishing performance
metrics for timeliness in processing referrals would improve the CSD’s overall
effectiveness.

The CSD’s new electronic system for managing case referrals should have a positive
impact on its efficiency. This system accounts for EPLS updates and generates email
reminders to case officers to enter or update actions in the EPLS. However, for
verification purposes, we believe the CSD should upload documentation related to
EPLS actions into the case management system.

Further, the CSD should have direct access to information resources pertinent to
documentation needs for processing cases. Finally, to be more proactive in protecting
the Government from irresponsible contractors, the CSD should have resources that
enable it to identify more prospective cases, in addition to those referred by the OIG.

Recommendations

We recommend that the Associate Administrator for Governmentwide Policy ensure:

   1. The maintenance of adequate staffing for the suspension and debarment
      function; specifically,

      a. There should be sufficient dedicated staff to support the function;
      b. All staff members should have the necessary skill sets and qualifications to
         effectively work on suspension and debarment cases; and
      c. The administrative process to fill vacancies should be efficient given the
         critical function of suspension and debarment.

   2. The SDO establishes a performance measure(s) for timeliness in processing
      case referrals.

   3. The CSD uploads documentation for all EPLS actions into the case management
      system.

   4. The CSD has direct access to resources that enable the division to efficiently
      obtain information required for documentation purposes and increases efforts to
      proactively obtain information for potential case referrals.


Management Comments

The Associate Administrator for Governmentwide Policy substantially agreed with our
findings. Appendix C of this report contains the Associate Administrator’s comments in
their entirety.

                                          ii
               REVIEW OF GSA’S SUSPENSION AND DEBARMENT PROCESS
                        REPORT NUMBER A090221/O/A/F10005


                                             INTRODUCTION

Background

Suspension and debarment are discretionary actions that the Government takes to
protect itself, and thereby the taxpayers, from conducting business with irresponsible
contractors. The Federal Acquisition Regulation (FAR) Subpart 9.4, Debarment,
Suspension, and Ineligibility, provides government-wide policies and procedures that
govern suspension and debarment. The FAR states that agencies shall not solicit offers
from, award contracts to, or consent to subcontracts with irresponsible contractors.
Unless an agency head directs otherwise, the FAR permits the continuation of a current
or existing contract at the time of suspension, proposed debarment or debarment;
however, the FAR does not permit adding new work, exercising contract options, or
extending an existing contract. Given the serious nature of suspension and debarment,
the regulation cautions that these actions be imposed only to protect the public interest,
not as punishment; which is within the purview of the criminal justice system. The FAR
encourages agencies to establish their own methods and procedures to supplement
FAR guidance. Agencies designate a suspension and debarment official to implement
these procedures and to oversee suspension and debarment actions.

At the General Services Administration (GSA), suspension and debarment is
implemented through the Center for Suspension and Debarment (CSD), which is part of
the Acquisition Integrity Division, a branch of GSA’s Office of Acquisition Policy. 1 GSA
Order ADM 5440.619, effective August 11, 2009, placed GSA’s Office of Acquisition
Policy under the Office of Governmentwide Policy. GSA’s Director of Acquisition
Integrity is also its Suspension and Debarment Official (SDO). In addition, at the time of
our review, this individual also had a number of other responsibilities which included
Agency Protest Official, Multiple Award Indefinite-Delivery Indefinite-Quantity Contract
Ombudsman, and the Metrication Ombudsman. 2 While there is no provision to
preclude the SDO from other responsibilities, management needs to be fully aware of
generally competing interests prior to assigning multiple roles and responsibilities to the
SDO.

The CSD staff, which is made up of case officers and administrative support personnel,
reports directly to the SDO. The CSD receives virtually all suspension and debarment
case referrals from the Office of Inspector General’s (OIG’s) Office of Investigations. If
a case referral results in a suspension and debarment action, the CSD enters the
pertinent information into the Excluded Parties Listing System (EPLS) a government-


1
    Refer to Appendix A for an organization chart of GSA’s Office of Acquisition Policy.
2
 As of July 2010, the current SDO is also responsible for the role of Deputy Chief Acquisition Officer,
GSA’s Senior Procurement Executive, and Deputy Associate Administrator for Acquisition Policy.
                                                       1
wide database used for tracking these actions. Contracting officials are required to
check EPLS before making contract awards to ensure the Government contracts only
with responsible contractors. Since suspension and debarment actions become a
critical source of information for contracting officials, it is important that the suspension
and debarment process is as timely as possible without compromising the quality of the
decision-making process.

In December 2007, we issued Report Number A070105/O/A/F08004, Review of GSA’s
Suspension and Debarment Program. At that time, the suspension and debarment
function was under the Office of the Chief Acquisition Officer (OCAO). In that review,
we found that inadequate staffing levels led to a backlog of suspension and debarment
case referrals. We recommended that the OCAO ensure adequate staffing for the
suspension and debarment function. We also found that GSA hired contractors to
assist with the case backlog and recommended the OCAO avoid hiring contractors to
work on suspension and debarment case referrals in the future. According to
management’s action plan in response to the recommendations, the OCAO had filled all
staffing vacancies as of October 15, 2007. The current review was included in the fiscal
year (FY) 2010 OIG Audit Plan and is a follow up to the 2007 review.


Objective, Scope, and Methodology

The objective of this review was to determine the extent to which the CSD is effective in
processing suspension and debarment case referrals and taking action in response to
those referrals. In order to answer the objective, we:

•   Reviewed FAR Subpart 9.4 and other relevant guidance;
•   Conducted meetings with the SDO and CSD staff members;
•   Reviewed previous GSA OIG reports on suspension and debarment, as well as
    reports from other agencies’ OIGs on suspension and debarment programs;
•   Reviewed the CSD’s internal policies and procedures;
•   Reviewed the CSD’s staffing history since the 2007 review;
•   Reviewed staff position descriptions and performance measures;
•   Observed the CSD’s transition to electronic case processing and the new electronic
    case file system;
•   Examined a sample of case files;
•   Obtained and reviewed weekly case log inventories;
•   Reviewed EPLS documentation; and
•   Reviewed and analyzed the CSD’s internal statistics of actions taken for FY 2009.

We conducted the review between October 2009 and April 2010 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

                                             2
          REVIEW OF GSA’S SUSPENSION AND DEBARMENT PROCESS
                   REPORT NUMBER A090221/O/A/F10005


                                 RESULTS OF REVIEW

GSA’s CSD continues to face challenges related to staffing problems that have
impacted its ability to effectively process case referrals. While the staffing situation has
improved since our 2007 report and the CSD has been productive at processing and
taking action in response to the majority of its workload, concerns remain that GSA has
not afforded this critical function adequate resources. As a result, there is an increased
risk of the Government conducting business with irresponsible contractors.

We found that the CSD’s processes implement FAR guidance for decision making on
the part of the SDO. However, while the FAR does not specify required time frames for
reaching an initial decision and taking action, we believe establishing performance
metrics for timeliness in processing referrals would improve the CSD’s overall
effectiveness.

The CSD’s new electronic system for managing case referrals should have a positive
impact on its efficiency. This system accounts for EPLS updates and generates email
reminders to case officers to enter or update actions in EPLS. However, for verification
purposes, we believe the CSD should upload documentation related to EPLS actions
into the case management system.

Further, the CSD should have direct access to information resources pertinent to
documentation needs for processing cases. Finally, to be more proactive in protecting
the Government from irresponsible contractors, the CSD should have resources that
enable it to identify more prospective cases, in addition to those referred by the OIG.

Management Has Yet to Fully Resolve Staffing Inadequacies

Lack of sufficient staff with the proper qualifications has continued to impact the CSD’s
ability to process suspension and debarment referrals in a timely manner. While the
current SDO has made progress on this issue, staffing challenges remain because
management has not placed a sufficiently high priority on staffing this critical function.

During our 2007 review, we found that inadequate staffing for suspension and
debarment caused a backlog of case referrals. At that time, the CSD’s staff consisted
of the Acting SDO and two individuals who helped work on cases but who were not
permanently assigned to the CSD. We also found that the OCAO hired six contractor
staff to temporarily assist in clearing a backlog of case referrals that had built up over
time because the CSD did not have enough staff to handle the case load. In our
December 2007 report, we recommended that the OCAO ensure that the suspension
and debarment division maintain adequate staffing to avert future case backlogs. The
                                             3
OCAO’s action plan in response to the audit recommendations stated that the OCAO
had filled all vacancies as of October 15, 2007.

During our current review, we found that staffing related challenges and adjustments
continued in the CSD. There was not a significant difference between the staffing level
during the 2007 review and the staffing that resulted from the OCAO’s implementation
of the action plan. From May through July 2007, three new staff members started;
however, one was not a full time case officer in suspension and debarment. In October
2007, a new SDO started. Staff turnover during 2008 prevented the development of a
cadre of permanent, experienced individuals to process referrals. In January 2008, one
of the two full time staff members left the CSD on military leave and did not return. In
February 2008, one new staff member started.

The OCAO appointed the current SDO in July 2008. Due to the history of inadequate
staffing, the current SDO found that a substantial number of older cases had to be
processed, as well as cases with past actions that had expired and/or needed to be
reevaluated prior to closure. Thus, the SDO made it a priority to process and/or finish
the older cases. To accomplish this, the SDO placed a temporary freeze on incoming
cases unless they were urgent. At the beginning of our review, we found that
approximately 44 percent of the closed case inventory represented cases referred prior
to FY 2008. 3 A few of these cases remained in the CSD’s active inventory, which also
represented examples of the current staff’s effort to terminate expired actions or update
the inherited cases. In addition, we found a small backlog of newer cases yet to be
assigned. The backlog increased from three to six referrals over several months during
our review.

In addition to completing older cases, the current SDO has made efforts to obtain
improved staffing in the CSD, including the use of law student interns for assistance on
cases. The SDO developed a full time employee structure consisting of five full time
case officers and one full time administrative support staff for suspension and
debarment work. The SDO also determined that the current job series of CSD staff did
not require the appropriate skill sets and experience to effectively work on suspension
and debarment cases. Given the nature of suspension and debarment work, the SDO
determined that it was critical that case officers have legal training, specifically law
degrees. However, at the end of FY 2008, the CSD had only two staff members that
were qualified, one of whom was not designated as full time for suspension and
debarment work due to other priority work in the Acquisition Integrity Division. This lack
of staff contributed to the CSD’s inability to process its case load in a timely manner.

At the start of our review in October 2009, the SDO’s staffing plan had been partially
fulfilled. At that time, the SDO had four case officers, 4 but only two were fully dedicated
to suspension and debarment. In addition, one of the four did not have legal training.
The SDO, who is also the Director of Acquisition Integrity, needed the other two staff to


3
    Our opinion on the prior case files is limited to those included in our audit sample.
4
    One case officer retired during our review.
                                                         4
support other functions of the division. Accordingly, at no time since our 2007 review
until March 2010, were there more than two fully dedicated and qualified case officers
for suspension and debarment. While we understand the demands of other functions
within the Acquisition Integrity Division, it is imperative for the CSD staff to be fully
dedicated to suspension and debarment to ensure that the SDO can process referrals
as efficiently as possible to protect the Government from conducting business with
irresponsible contractors.

Throughout our review, the SDO voiced concerns regarding delays associated with
personnel processes related to fulfilling the staffing plan. For example, during our
review, it took five months to post a vacancy for one of the case officer positions. Once
the SDO made the selection for that position, another seven weeks passed before the
candidate started on the job. 5 As of April 2010, one case officer position remained
vacant. This is an important issue given the increased risk of the Government
conducting business with irresponsible contractors when there is a backlog of case
referrals in suspension and debarment. Having the necessary resources to take timely
action is critical to fulfilling the intent of suspension and debarment as a protective
measure for government acquisition.

In addition to the staffing challenges associated with case officers in the CSD, we noted
significant instability in staffing the SDO position. Figure 1 details the time periods in
which a different individual served as GSA’s SDO from FY 2004 to date of report and
whether or not GSA hired for the position permanently. As illustrated below, four of the
SDOs served 13 months or less between August 2005 and July 2008. We also noted a
six month gap, between December 2005 and June 2006, in which we found that GSA
did not assign an individual to the position. Inconsistent staffing of the SDO position
hindered the organizational development of the CSD.

           Figure 1: SDO Turnover at GSA from FY 2004 to Date of Report 6

                      Status of the SDO Position
                      Permanent SDO* from October 2003 to August 2005
                      Acting SDO from August 2005 to December 2005
                      Vacant from December 2005 to June 2006
                      Acting SDO from June 2006 to July 2007
                      Permanent SDO from July 2007 to September 2007
                      Permanent SDO from October 2007 to July 2008
                      Permanent SDO* from July 2008 to date of report 7
                       *Same individual




5
  Candidate replaced the retired case officer.
6
  Data provided by the CSD.
7
  The SDO position became a Senior Executive Service level position. Previously it was a General
Schedule 15 position.
                                                  5
       Despite Challenges, the CSD Processed the Majority of its FY 2009
Workload. The CSD was productive in processing referrals and taking action in
response to the referred respondents 8 throughout FY 2009; notwithstanding that (a) the
CSD was not fully staffed, (b) part of the staff was not fully dedicated to suspension and
debarment cases, and (c) a backlog of older cases existed in addition to incoming
cases. Once the CSD is fully staffed, there should not be any unassigned cases, and
the productivity level should increase.

We focused our productivity analysis on the CSD’s actions taken during FY 2009. The
CSD’s FY 2009 workload consisted of 427 referred respondents. By the end of FY
2009, the CSD had taken action on 73 percent of these respondents, leaving 27 percent
in process. 9 We separated the 427 respondents into two groups: 1) respondents
referred prior to FY 2009 and 2) respondents referred during FY 2009. Figure 2
illustrates the productivity on respondents referred prior to FY 2009. On the following
page, Figure 3 illustrates the productivity on respondents referred during FY 2009.

          Figure 2: Status of the 273 Respondents Referred Prior to FY 2009
                               but Acted upon in FY 2009




8
  Case referrals contain one or more individual respondents. A respondent is an individual, business, or
entity, each with the potential of being suspended or debarred.
9
  Refer to Appendix B for a breakdown of the status of the 427 respondents as of the end of FY 2009.

                                                    6
          Figure 3: Status of the 154 Respondents Referred and Acted upon
                                       in FY 2009




Based on Figures 2 and 3, the respondents referred in cases prior to FY 2009 made up
over half of the CSD’s workload during FY 2009. We found that, out of the 273
respondents referred prior to FY 2009, about 40 percent were referred during FY 2008,
and the other 60 percent originated prior to FY 2008. We primarily attributed the cases
referred prior to FY 2009 to effects of the backlog and slower processing times caused
by inadequate staffing. 10 More urgent management attention to the maintenance of
adequate staffing in the CSD after our 2007 review could have prevented delays in
processing these referrals. In addition, the percentage of respondents that remained in
process by the end of FY 2009 could have been lower.

Overall, we found that the OCAO did not adequately address the staffing deficiencies
identified during our 2007 review. The staffing shortage continued during 2008, with
older cases remaining to be processed and/or completed, which impacted the CSD’s
ability to respond timely to incoming cases. While the current SDO has made progress
in terms of obtaining the right number of staff with the right qualifications, the amount of
time it has taken management to reach a point of notable improvement negatively
impacted the CSD’s ability to effectively protect tax dollars. In FY 2009, over half the
CSD’s workload represented cases carried over from prior fiscal years. Greater
productivity could have resulted if management had ensured staffing inadequacies were
fully addressed. Continued attention to the maintenance of adequate staffing is needed,
including expediting administrative processes related to filling open or vacated
positions.




10
  This includes the completion of older cases and terminating expired actions as previously mentioned on
page 5 of this report.
                                                   7
Recommendation

We recommend that the Associate Administrator for Governmentwide Policy ensure:
  1. The maintenance of adequate staffing for the suspension and debarment
      function; specifically:

      a. There should be sufficient dedicated staff to support the function;
      b. All staff members should have the necessary skill sets and qualifications to
         effectively work on suspension and debarment cases; and
      c. The administrative process to fill vacancies should be efficient given the
         critical function of suspension and debarment.

Management Comments

In her September 28, 2010, response to the draft report, the Associate Administrator for
Governmentwide Policy substantially agreed with the finding and recommendation and
indicated that the CSD is currently fully staffed. In addition, the Associate Administrator
questioned the purpose of including the details of the history of the staffing of the SDO
position in the report. The response noted that this was not mentioned in our 2007
report, and at the time of this review, the current SDO was in place and has now been in
place for over two years. Further, management believes that the elevation of the SDO
position to Senior Executive Service level reflects that management considers the
position critical. See Appendix C.

OIG Response

As noted in the report, we believe that the instability of SDO position contributed to the
staffing deficiencies in the CSD and the ability of the CSD to effectively operate to
complete case work in a timely manner over an extended time period. While we concur
that the status and tenure of the current SDO reflects improved management attention
to the suspension and debarment function, we believe it is important to include the
historical instability of the SDO position for emphasis in supporting our
recommendations.


The CSD’s Process Provides a Framework for Suspension and Debarment
Decisions

Given the significance of suspension and debarment actions, it is critical that the CSD’s
process for evaluating referrals provides for implementation of FAR requirements for
making decisions in the interest of protecting the Government. While the regulations
allow the SDO broad discretion in fulfilling the role, a structured framework for
evaluating referrals helps ensure that SDO decisions are consistent and supported. We
found that the policies and procedures currently in place within the CSD provides such a
framework.


                                            8
The SDO decides whether or not a contractor is presently responsible, and if found
irresponsible, the SDO determines whether or not a suspension or debarment action is
in the Government’s best interest. The SDO makes these decisions based on the
guidance and discretion afforded in the FAR. FAR Subpart 9.4 provides criteria that
may be used as cause to suspend or debar and also advises that the SDO should
consider a number of mitigating factors and remedial measures before reaching a
decision. While the regulation provides specific guidance for the decision process, it
also provides a noteworthy amount of discretion to the suspending or debarring official,
some of which is detailed in FAR 9.406-1(a) and 9.407-1(b)(2). Specifically, the
existence of a cause for suspension or debarment does not necessarily require that the
suspending or debarring official take action against the contractor. The seriousness of
the contractor’s acts or omissions and any remedial measures or mitigating factors
should be considered in making any suspension or debarment decision.

While FAR 9.4 provides examples of what may constitute a cause for suspension and
debarment (e.g., conviction, indictment, and civil judgment), the regulation also provides
that an SDO may suspend or debar based on any other cause of so serious or
compelling a nature that it affects the present responsibility of the contractor or
subcontractor. Thus, it is important that an SDO consider the entire administrative
record related to the respondent to assess not only present responsibility but also
whether the respondent presently fits the definition of a contractor in the context of FAR
9.4. Essentially, the Government should only suspend or debar a contractor for
something that is or has been significantly detrimental to the Government or that could
result in a great loss to the Government if no action is taken.

To supplement this guidance, FAR 9.402 instructs agencies to establish appropriate
procedures to implement the policies and procedures of the FAR. Relative to the
decision process, FAR 9.406-3(b)(1) and 9.407-3(b)(1) state,

          Agencies shall establish procedures governing the [suspension and
          debarment] decision making process that are as informal as is
          practicable, consistent with principles of fundamental fairness.
          These procedures shall afford the contractor (and any specifically
          named affiliates) an opportunity to submit, in person, in writing, or
          through a representative, information and argument in opposition to
          the [suspension or proposed debarment].

In addition to the FAR, GSA’s CSD must follow GSA Order ADM 5450.140, Legal
Review of Suspension and Debarment Decisions. Effective since 2002, the Order
established that the Office of General Counsel (OGC) should review all proposed
decisions related to suspension and debarment, including no action decisions, for legal
sufficiency and compliance with regulation. OGC’s legal review is required before the
SDO implements any suspension or debarment decisions; however, the final decision
still rests with the SDO.




                                            9
The CSD’s decision process is summarized as follows:

               Upon receipt of a case referral from the OIG Office of Investigations, the
  1            SDO screens the referral to make an initial determination on whether or
               not it is actionable. The SDO assigns the case to a case officer.


               The case officer reviews all necessary information and applies legal
  2            knowledge in order to recommend a course of action for each
               respondent in the referral. Case officers support their recommendations
               with a written analysis describing their reasoning based on the
               administrative record and FAR 9.4.          Their written analysis and
               recommendation is called an Action Referral Memorandum (ARM).


  3            The SDO and OGC review the ARM; the SDO has final approval.


               The CSD presents the SDO’s decision in a formal letter to the
  4            respondent via certified mail as required by the FAR.

The primary decisions that result from case referrals are suspension, proposed
debarment, and debarment. The EPLS effect of listing a contractor under suspension,
proposed debarment, or debarment is the same in the sense that the respondent is not
allowed to contract with the Government; however, we note general differences among
these actions. The justification for suspension differs somewhat from that of debarment.
Suspension is a temporary action with an indefinite time period, as it is generally
pending the completion of an investigation or subsequent legal proceedings; whereas
debarment may result from a conviction. A proposed debarment is the first step to
debarment and must be issued first in order for the SDO to take debarment action.
While a proposed debarment is a temporary indefinite action, debarment is an action for
a definite time period. Debarment can also follow a suspension already in place.

Other courses of action the SDO may take include Lead Agency Transfers,
Administrative Agreements, or a No Action Referral Memorandum. However, Lead
Agency Transfers do not require legal review.

      Lead Agency Transfer - This results when the CSD finds that another agency has
      already taken action. A lead agency transfer also results when the SDO
      determines that the referral has more direct ties to another agency than to GSA;
      therefore, that agency should take the lead in processing the referral. The CSD
      has a policy in place to follow up with the lead agency’s decision after the
      transfer is complete.

      Administrative Agreement - An administrative agreement is a written, signed
      agreement between the SDO and the respondent(s) that may occur instead of

                                          10
       suspension or debarment. The agreement holds the respondent(s) accountable
       to the established terms in order to be found presently responsible.

       No Action Referral Memorandum - When the SDO determines that no action
       should be taken against the referred respondent(s), the CSD writes an analysis
       similar to the ARM stating why no action is necessary.

Once the CSD takes an action, the CSD notifies the OIG Office of Investigations via
email. The email contains a copy of the final letter(s) mailed to the respondent(s). In
the case of a no action decision, the CSD provides a copy of the No Action Referral
Memorandum.

In addition, the CSD sometimes uses other measures as needed prior to making one of
the previously mentioned decisions. For example, the CSD may search for the most
recent relevant litigation, settlements, or other legal actions that might have occurred
since the OIG made the referral. Other measures include a Show Cause Letter (SCL)
and a Request for Information (RFI). The CSD may issue a SCL to a respondent if it
has concerns regarding the respondent’s past responsibility but would like to elicit
additional information regarding their present responsibility. The CSD also may issue
an RFI to obtain other pertinent information. These methods assist the SDO in
determining present responsibility.

We verified the CSD’s use of these policies and procedures for its decision process in
several ways during our review. We spoke with the SDO and staff about their
processes and obtained documented internal policies and procedures. We also
reviewed and assessed a sample of case files, which supported both adherence to and
the need for the CSD’s existing process. Additionally, we viewed case status
information logs maintained by the CSD. Finally, we verified that the existing policies
and procedures are mirrored in the CSD’s new electronic case management system. 11

These policies and procedures, combined with the GSA Order for General Counsel’s
review and the CSD disposition reports, facilitate an environment for responsible
decisions and accountability. Accordingly, we found the CSD’s current policies and
procedures to be effective in facilitating a sound decision process relative to suspension
and debarment referrals.


Performance Measures for Timeliness Needed

The CSD’s decision-making process could be enhanced with the implementation of
certain timeliness performance measures. While FAR 9.4 mandates response times
between the contractor and the SDO; it does not specify the time frames an SDO has to
take initial action (e.g., suspension or proposed debarment).


11
 See page 16 of this report for more information on the CSD’s newly established electronic case
management system.
                                                  11
The FAR response times between the contractor and the SDO are as follows:

     •   When the SDO issues a notice of suspension or proposed debarment, the
         contractor has 30 days from receipt of notice to submit a response.

     •   In actions based upon a conviction or civil judgment, or in which there is no
         genuine dispute over material facts, the SDO should make a final decision on a
         proposed debarment that is not preceded by a suspension within 30 working
         days after receipt of any information or argument from the contractor. The SDO
         may extend the period if there is good cause.

     •   For a suspension, the SDO should send prompt written notice of the final
         decision after receiving a submission from the respondent and the conclusion of
         any proceedings disputing material facts.

Given these time frames, there is an allotted 30-plus days for the SDO to make the final
decision after issuing a suspension. For a proposed debarment, there is an allotted 30
to 60-plus days for the SDO to decide whether or not the proposed debarment should
become a debarment. The 30 to 60-plus days may or may not include a potential
extension, a hearing, and/or fact finding over disputed facts. Therefore, the time from
an initial action to a final resolution varies. In order to simplify the suspension and
debarment process, we separated the process into two broad phases, which are
summarized as follows:

         Phase I     The time from when the CSD receives the referral to the time when
                     the CSD issues the first action, such as a notice for suspension or a
                     notice for proposed debarment. 12

         Phase II   The time from when the CSD issues the suspension or proposed
                    debarment to when a final resolution occurs (e.g., debarment or
                    terminated action), which accounts for the response time frames
                    associated with due process required by FAR 9.4.

We found that the CSD adheres to the response time frames provided in FAR 9.4. In
addition, the CSD documents key dates within its process and holds weekly staff
meetings on the status of the case inventory. However, the CSD has not established
performance measures that account for timeliness in Phase I.

We calculated several sets of time averages reflecting Phase I (the time it took the CSD
to take action upon receiving a referral). From the CSD’s FY 2009 actions data, we
calculated the average time between the OIG referral date 13 and the date the CSD



12
  A lead agency transfer or a decision for no action may also occur, but Phase II is not applicable.
13
  The date of the referral from the OIG was not necessarily the same date that the CSD received the
referral.
                                                   12
reported issuance of an initial action or decision on the referral. The average times by
action type are shown in Figure 4.

                Figure 4: Average Time for the CSD to Take Action on
                          Referrals Made in FY 2009 (Phase I)

               Action Type                               Average Time (months)
               Suspension                                          4.7
               Proposed Debarment                                  4.9
               Lead Agency Transfer                                3.8
               No Action decision                                  6.1

While we drew the average times from 43 cases 14 containing 96 respondents, it is
important to recognize that the CSD’s entire workload in FY 2009 was 427 respondents.
Over half of the 427 carried over from prior years, which impacted the CSD’s time
frames to address cases new to FY 2009.

In addition to calculating average times for the CSD to take initial action on the FY 2009
referrals (Figure 4), we evaluated timeliness in the case referrals we sampled. In 6 out
of 12 cases sampled, 15 we found that an average of approximately three months
passed from the time the CSD received a referral to when the CSD took initial action.

During our review, we found that several factors can impact the time it takes for the
CSD to issue action(s) on a case referral. For example, one case referral contained 26
respondents. While respondents may have some commonalities, each respondent is
unique as far as the need for the SDO to evaluate the case and take appropriate action.
The suspension or debarment of one respondent may not necessarily apply to all
respondents associated with a referral. Accordingly, because multiple actions can
result from one referral, some case referrals may require more or less time than others.
In addition, the number of staff on hand and the extent to which they work full time on
suspension and debarment are contributing factors to timeliness.

                           Figure 5: CSD Staffing During FY 2009

                         Case Officers Present During All of FY 2009
                                                   Approximate Percentage of
            Full or Part Time Employee             Time Spent on Cases
            1 Full Time                                        100%
            1 Full Time                                         30%
            1 Part Time                                        100%




14
  We rounded the time for each case to the nearest whole or half month.
15
  We excluded the other half of the sample because the case either had not yet developed to the point of
the SDO issuing an action, or the case was older and worked on by previous staff and/or a previous SDO.
                                                  13
                Case Officers Present for Part of FY 2009 (3 to 7 months)
                                                   Approximate Percentage of
          Full or Part Time Employee               Time Spent on Cases
          1 Full Time                                          20%
          2 Interns*                                          100%
             *Interns alternated between a part time and full time schedule.

The use of performance metrics may help identify where delays most frequently occur,
and the CSD could develop strategies to reduce delays. During our review, the SDO
communicated that the diverse nature of referrals makes it very difficult to set a single
standard for processing time, and that a deadline should not jeopardize the quality of
the case evaluation and thereby an appropriate decision. While we concur with this
assessment, we suggest that the CSD could implement measures to account for referral
diversity. Due to the fact that case referrals often contain multiple respondents, the
CSD could focus the overall timeliness measure toward each respondent referred as
opposed to the entire case referral. Another potential approach might be to establish a
goal to take action toward a case referral, depending on size, within a certain number of
months. The CSD might also consider time standards for certain stages of the process
leading up to initial action.

While there is no time frame required by the FAR for Phase I, we believe it would be
beneficial for the CSD to develop reasonable performance measure(s). The longer it
takes to determine whether or not a contractor should be suspended or debarred, the
longer those who should be suspended or debarred may continue to receive
government dollars.

Recommendation

We recommend that the Associate Administrator for Governmentwide Policy ensure:

   2. The SDO establishes a performance measure(s) for timeliness in processing
      case referrals.

Management Comments

In her September 28, 2010, response to the draft report, the Associate Administrator for
Governmentwide Policy substantially agreed with the finding and recommendation and
indicated that in July of 2010, the CSD established performance metrics to process
referrals. Appendix C of this report contains the Associate Administrator’s comments in
their entirety.




                                                14
The CSD Should Upload EPLS Updates to Case Management System

The CSD’s new electronic case management system streamlines the processing of
case referrals and provides better organization and accountability for case file
information. In addition, the system prompts the CSD to update EPLS; however, the
CSD should upload documentation of these updates to ensure a complete record of
such actions in the case management system.

The CSD acquired a business process management system called the Intranet Quorum
(IQ), (commonly referred to as the IQ Tool) which it customized for the suspension and
debarment process. As of August 2009, the CSD began to process all new case
referrals through the IQ Tool. In addition, the CSD requested the OIG to make all
referrals electronically. By receiving, processing, and acting upon case referrals
electronically, the CSD saves time. The electronic case management system also
provides better organization and accountability for case file information, particularly as
some case files contain lengthy documentation.          In addition, the system aids
management oversight of case status and helps maintain a uniform set of process steps
for the staff to follow. Moreover, the case management system generates an email
reminder to case officers to update the EPLS upon issuance of suspension and
debarment actions. However, it would be beneficial if case officers were to upload
documentation of all EPLS actions and updates into the system to serve as verification
of the actions within the electronic case file.

We reviewed the structure of the IQ Tool, obtained user manuals developed by the
CSD, and viewed the first case the CSD entered into the system for processing. We
found that the IQ Tool mirrored all aspects of the CSD’s processes, as verbally
described and according to actual practice, for evaluating and acting upon referrals.
While we found that the IQ Tool did not account for referrals resulting in an
administrative agreement, once we brought it to the attention of the CSD, the CSD
added that step to the system.

Specific benefits that we identified include, but are not limited to, the following:

   •   One centralized location for the CSD’s cases;
   •   Better organization of documents;
   •   Easier reporting on the status of cases;
   •   Reduced time in the approval process and in sending dispositions to
       investigations; and
   •   Easier management oversight.

In addition, each data field in the system serves as a reminder of the applicable steps to
complete or check during the process. Once the CSD staff records the issuance or
updating of an EPLS action in the IQ Tool, the system sends an email reminder to the
case officer on the final day the FAR allows for EPLS updates. The centralized
electronic data should make gathering and reporting performance related statistics
easier. Also, the electronic workflow feature details what has been done, the date and
time, and by whom. The detailed workflows, as well as the EPLS reminder, serve as
                                            15
primary control points within the system. The only aspects of the process that remain
outside the system are the acts of research and obtaining documentation, FAR-
mandated certified mailing of action letters, and physically updating the EPLS. With
regard to the EPLS, we noted that the CSD practice with the paper file method was to
print documentation of EPLS actions and updates; however, we found that the CSD had
not accounted for the inclusion of such documentation into the IQ Tool. We believe that
uploading the EPLS documentation into the system is a key step for verification of EPLS
actions.

The CSD’s implementation of the IQ Tool is a significant improvement to the suspension
and debarment process at GSA. The IQ Tool effectively streamlines the administrative
processes, which is highly beneficial given the volume of case work and documentation
involved. The CSD should incorporate the uploading of documentation of EPLS actions
and updates to ensure that a complete record of such actions remains with the
associated referral documentation.

Recommendation

We recommend that the Associate Administrator for Governmentwide Policy ensure:

   3. The CSD uploads documentation for all EPLS actions into the case management
      system.

Management Comments

In her September 28, 2010, response to the draft report, the Associate Administrator for
Governmentwide Policy substantially agreed with the finding and recommendation.
Appendix C of this report contains the Associate Administrator’s comments in their
entirety.


Use of Additional Information Resources Would Facilitate Efficiency and a More
Proactive Focus

The CSD could function more efficiently and effectively if it had expedient access to
information required to support case referral actions. In addition, the CSD could be
more proactive in protecting taxpayer dollars if the CSD increased efforts to identify
potential referrals.

The CSD would be more efficient if its staff had direct access to key information
resources, such as the Public Access to Court Electronic Records (PACER) system.
PACER contains records of court actions. When the CSD has a referred respondent
with a court action, the CSD requires documentation of the action(s) to process the
referral. Virtually all of the CSD’s case referrals originate with the OIG’s Office of
Investigations, which has access to PACER. Rather than relying upon the OIG for
PACER information, it would add efficiency to the process if CSD staff had direct access

                                          16
to PACER. The SDO stated that he had requested access to PACER on behalf of his
staff and indicated that management denied the request due to costs. 16

We also believe that the CSD would be more effective if the SDO was able to identify
more potential referrals. While the SDO engages in some activities such as outreach to
contracting officials and review of media publications, at the time of our review, there
were no referrals that did not originate with the OIG. The SDO can also identify
potential referrals through various information sources such as review of individual state
debarment listings for GSA or other federal government contractors. Currently, state
listings do not coincide with the EPLS; therefore, checking the state listings could
potentially result in identifying more cases for consideration of suspension and
debarment action at the federal level.

Since the CSD performs a critical role to ensure acquisition integrity for GSA and the
Government at large, the division should have expedient access to information required
to support case referral actions.

Recommendation

We recommend that the Associate Administrator for Governmentwide Policy ensure:

     4. The CSD has direct access to resources that enable the division to efficiently
        obtain information required for documentation purposes and increases efforts to
        proactively obtain information for potential case referrals.

Management Comments

In her September 28, 2010, response to the draft report, the Associate Administrator for
Governmentwide Policy substantially agreed with the finding and recommendation.
Appendix C of this report contains the Associate Administrator’s comments in their
entirety.


Conclusion

Overall, we found that the OCAO did not adequately address the staffing deficiencies
identified during our 2007 review. The staffing shortage continued during 2008, with
older cases remaining to be processed and/or completed, which impacted the CSD’s
ability to respond in a timely manner to incoming cases. While the current SDO has
made progress in terms of obtaining the appropriate number of staff, with proper
qualifications, management has not placed a sufficiently high priority on staffing this
critical function. Nevertheless, the CSD took action on the majority of its workload in FY
2009. However, the CSD could have achieved greater productivity if management had


16
  According to the PACER website, the cost is currently eight cents per page for viewing and obtaining
documents.
                                                 17
ensured adequate staffing. Continued attention is needed to ensure expedited
administrative processes related to filling open or vacated positions.

Aside from persistent staffing challenges, we found that the CSD’s process for decision
making on the part of the SDO is in accordance with the FAR and other relevant criteria.
However, we found the CSD has not established performance goals related to
timeliness in issuing initial protective action in suspension and debarment. While the
FAR does not specify a required time frame for taking initial action, we believe the
establishment of performance metrics for timeliness would improve CSD’s effectiveness
in protecting the Government.

Further, the CSD’s new electronic case management system should substantially
benefit the suspension and debarment process. The system streamlines the process
and provides for better management oversight. The system also generates an email
reminder to ensure case officers enter suspension and debarment actions into EPLS in
a timely manner. We believe the CSD should also upload documentation of all EPLS
actions into the system for verification.

Finally, the CSD could increase efficiency with direct access to information resources
pertinent to documentation needs. An increase in the CSD’s efforts to identify more
potential referrals would be a more proactive approach to increase the CSD’s
effectiveness in protecting taxpayer dollars.

Internal Controls

We limited our assessment of internal controls to those related to the CSD’s processing
of suspension and debarment referrals. We reviewed the CSD’s policies and
procedures, utilized substantive testing to assess the effectiveness of the controls, and
made recommendations to strengthen and improve the controls as discussed in the
Results of Review and Recommendations sections of this report.




                                           18
APPENDIXES
           REVIEW OF GSA’S SUSPENSION AND DEBARMENT PROCESS
                    REPORT NUMBER A090221/O/A/F10005

                                           APPENDIX A
                                  GSA Office of Acquisition Policy
                                       Organization Chart



                                        Office of Acquisition Policy




 Acquisition Integrity Division          Acquisition Policy Division          Acquisition Systems Division



 Center for         Center for           Contract         Regulatory           Acquisition     Acquisition
Procurement        Suspension             Policy          Secretariat         Environment       Systems
Management            and                Branch            Branch               Branch           Branch
  Review           Debarment




                  GSA Acquisition Workforce Division           Federal Acquisition Institute




                                                    A-1
REVIEW OF GSA’S SUSPENSION AND DEBARMENT PROCESS
         REPORT NUMBER A090221/O/A/F10005

                      APPENDIX B
     Status of 427 Respondents at the end of FY 2009




                          B-1
REVIEW OF GSA’S SUSPENSION AND DEBARMENT PROCESS
         REPORT NUMBER A090221/O/A/F10005

                  APPENDIX C
              Management Comments




                      C-1
C-2
C-3
          REVIEW OF GSA’S SUSPENSION AND DEBARMENT PROCESS
                   REPORT NUMBER A090221/O/A/F10005


                                    APPENDIX D
                                  Report Distribution

                                                                   Copies

Associate Administrator for Governmentwide Policy (M)                3

Internal Audits and Control Division (BEI)                           1

Assistant Inspector General for Auditing (JA and JAO)                2

Assistant Inspector General for Investigations (JI)                  1

Deputy Assistant Inspector General for Acquisition Audits (JA-A)     1




                                             D-1
